C@OCKLE

Legal Briefs

Est. 1923,

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831

Fax: (402) 342-4850 No. 19-742

JAMES BAILEY-SNYDER,
Petitioner,
v.
UNITED STATES,
Respondent.

AFFIDAVIT OF SERVICE

E-Mail Address:

contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 9th day of January, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF FORMER CORRECTIONS DIRECTORS AS AMICI
CURIAE IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been served by

Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
LAURA ROVNER
Counsel of Record
NICOLE B. GODFREY
STUDENT LAW OFFICE | CIVIL RIGHTS CLINIC
UNIVERSITY OF DENVER
STURM COLLEGE OF LAW
2255 East Evans Avenue, Suite 335
Denver, Colorado 80208
Tel: 303.871.6140 | Fax: 303.871.6847
Email: lrovner@law.du.edu

Counsel for Amici Curiae

Subscribed and sworn to before me this 9th day of January, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

on i Ellie Qudiaw-h, le

My Commission Expires Nov 24, 2020

 

Notary Public

39227
SERVICE LIST

Daniel M. Greenfield

Counsel of Record
Supreme Court and Appellate Program
Roderick and Solange MacArthur Justice Center
Northwestern Pritzker School of Law
375 East Chicago Avenue
Chicago, Illinois 60611
Daniel-greenfield@law.northwestern.edu
312-503-8538
Counsel for Petitioner

Noel J. Francisco

Solicitor General of the United States
Counsel of Record

U.S. Department of Justice

Room 5616

950 Pennsylvania Avenue, N.W.

Washington, DC 20530-0001

SupremeCtBriefs@USDOJ.gov

202-514-2217

Counsel for Respondent
